U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




   MAR 16 2012


Mr. Allan Pohl
Finance and Administrative Director
Michigan Department of Energy, Labor and Economic Growth
P.O. Box 30004
Lansing, Michigan 48909

      Recovery Act: Quality Control Review Single Audit of the
      Michigan Department of Energy, Labor and Economic Growth
      for October 1, 2008 through September 30, 2010

Dear Mr. Pohl:

The purpose of this final report (Report Number 18-12-004-03-390) is to formally
advise you of the results of a Quality Control Review (QCR) the U.S. Department
of Labor (DOL), Office of Inspector General conducted of the following audit
performed by the Auditor General for the State of Michigan under the Federal
Single Audit Act (Act) and Office of Management and Budget Circular A-133
(A-133):

      Single Audit of the Michigan Department of Energy, Labor and
      Economic Growth for October 1, 2008, through September 30, 2010.

The objectives of the QC R were to determine whether: (1) the audit was
conducted in accordance with applicable standards and met the single audit
requirements, (2) any follow-up work is needed, and (3) there are any issues that
may require management's attention.

The major programs included in our review were as follows:
DOL Major Programs Reviewed
                                          Catalog of Federal
                                                  Domestic                                                        DOL Funds
Major Program                                    Assistance                                                        Expended
                                                    Number

Labor Force Statistics                                               1
                                                                     17.207
                                                                     17.801
Employment Services (ES) Cluster                                     17.804                                        61,433,765
American Recovery and Reinvestment
Act (Recovery Act) ­  Wagner­




Workforce Investment Act (WIA) Cluster                                                                            424,521,060




H-1 B Job Training Grants                                            17.268 
                                      13,479,762
Occupational Safety and Health (OSH)




Based on our review of the audit documentation related to the programs above,
we determined that the audit work performed was acceptable and met the
requirements of the Act and A-133. No follow-up work is required and there are
no issues that require management's attention.

Since our review included Recovery Act funds, we are required by the Recovery
Act to post this report on our website               and link it to the Recovery
Accountability and Transparency Board's website  '::":"':';:"'::":"=':"';::;";::"::;":;";="""':..0:>..:::"'::"­
If you have any questions concerning the results of the QCR, please contact
Melvin F. Reid, Director, Office of Audit Quality Assurance, at (202) 693-6993.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

cc: Mr. Thomas H. McTavish, Auditor General
    State of Michigan

   Ms. Darlene      Audit Liaison 

   Employment and Training Administration 


   Ms. Judith A. Fisher, Director, Division of Policy, Review, and Resolution
   Employment and Training Administration
